No. 19-416

In The
Supreme Court of the United States
_____________________
NESTLÉ U.S.A., INC.,

v.

Petitioner,

JOHN DOE I et al.,
INDIVIDUALLY AND ON BEHALF OF
PROPOSED CLASS MEMBERS,

Respondents.
_____________________

On Petition for a Writ of Certiorari to
the United States Court of Appeals for
the Ninth Circuit
_____________________
BRIEF IN OPPOSITION
_____________________
PAUL L. HOFFMAN
Counsel of Record
CATHERINE E. SWEETSER
JOHN C. WASHINGTON
HELEN I. ZELDES
SCHONBRUN SEPLOW
HARRIS & HOFFMAN LLP
200 PIER AVENUE, #226
HERMOSA BEACH, CA 90245
TEL: (310) 396-0731
Email: hoffpaul@aol.com

TERRENCE
COLLINGSWORTH
INTERNATIONAL
RIGHTS ADVOCATES
621 MARYLAND AVE., NE
WASHINGTON, DC 20002
TEL: (202) 543-5811

Counsel for Respondents.

i
QUESTIONS PRESENTED
1. Whether a claim against a domestic corporation
brought under the Alien Tort Statute, 28 U.S.C. §
1350, may overcome the extraterritoriality bar where
the claim is based on violations of international law
by aiding and abetting slavery and forced labor from
the United States.
2. Whether domestic corporations are excepted
from liability under the Alien Tort Statute despite the
lack of an explicit exception in the statute.

ii
RELATED PROCEEDINGS
Another petition for a writ of certiorari seeks
review of the judgment entered in Doe I v. Nestlé, S.A.,
No. 17-55435 (9th Cir. July 5, 2019):
Cargill, Inc. v. Doe I, No. 19-453 (Oct. 3, 2019)
There are no other proceedings in state or federal
trial or appellate courts, or in this Court, directly
related to this case within the meaning of this Court’s
Rule 14.1(b)(iii).

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED. . . . . . . . . . . . . . . . . .. . . i
RELATED PROCEEDINGS . . . . . . . . . . . . . . . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . .. . ….iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . .. . .v
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
I. STATEMENT OF FACTS. . . . . . . . . . . . . . . . 3
II. PROCEEDINGS BELOW . . . . . . . . . . . . . . . . 7
A. Initial District Court Proceedings and
Appeal. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
B. Second Dismissal by the District Court and
Appeal. . . . . . . .. . . . . . . . . . . . . . . . . . . . . . 9
REASONS FOR DENYING THE WRIT . . . . . . . . . 10
I. THERE IS NO CONFLICT BETWEEN THE
DECISION BELOW AND DECISIONS OF
THIS COURT OR THE CIRCUIT COURTS.10
A. In Implementing the Touch and Concern
Test the Court Below Applied This Court’s
RJR Nabisco’s Two-Prong Analysis. . . . . 11

iv
B. Review is not Justified by a Conflict Among
the Circuit Courts. . . . . . . . . . . . . . . . . . . 13
C. This Case is Not Ripe for Review. . . . . . . 18
II. THE COURT OF APPEAL’S CORPORATE
LIABILITY HOLDING IS CONSISTENT
WITH THIS COURT’S PRECEDENT AND
DOES NOT CREATE A CIRCUIT SPLIT. . .19
A. The Ruling is Consistent With this
Court’s Decisions. . . . . . . . . . . . . . . . . 19
B. All Circuits to Address the Issue But One
Hold that Domestic Corporations May
Be Held Liable. . . . . . . . . . . . . . . . . . . . 24
III.THERE ARE NO PRUDENTIAL OR
SEPARATION OF POWERS CONCERNS
NECESSITATING REVIEW. . . . . . . . . . . . . 26
CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

v
TABLE OF AUTHORITIES

Cases

Page(s)

Adhikari v. Kellogg Brown & Root, Inc.,
845 F.3d 184 (5th Cir. 2017) .......................14, 15, 17
Al Shimari v. CACI Premier Tech., Inc.,
758 F.3d 516 (4th Cir. 2014) ............................ 14, 17
Baloco v. Drummond Co., Inc.,
767 F.3d 1229 (11th Cir. 2014) ........................ 15, 16
Cardona v. Chiquita Brands Int’l, Inc.,
760 F.3d 1185 (11th Cir. 2014) ........................ 16, 17
Doe I v. Nestlé USA, Inc.,
766 F.3d 1013 (9th Cir. 2014) ........................ 6, 9, 27
Doe I v. Nestlé, S.A.,
748 F. Supp. 2d 1057 (C.D. Cal. 2010) .................... 9
Doe v. Drummond Co.,
782 F.3d 576 (11th Cir. 2015) ...............13, 15, 16, 17
Doe v. Exxon Mobil Corp.,
654 F.3d 11 (D.C. Cir. 2011) .................................. 24
Estate of Alvarez v. Johns Hopkins Univ.,
205 F. Supp. 3d 681 (D. Md. 2016) ........................ 25

vi
Estate of Alvarez v. Johns Hopkins Univ.,
2019 WL 1779339 (D. Md. Apr. 23, 2019) ............. 25
Estate of Alvarez v. Johns Hopkins Univ.,
373 F. Supp. 3d 639 (D. Md. 2019) ........................ 25
Flomo v. Firestone Nat. Rubber Co.,
643 F.3d 1013 (7th Cir. 2011) ................................ 24
In re Arab Bank, PLC Alien Tort Statute Litig.,
808 F.3d 144 (2d Cir. 2015 .................................... 26
Jesner v. Arab Bank, PLC,
138 S. Ct. 1386 (2018) ..................................... passim
Kiobel v. Royal Dutch Petroleum Co.,
569 U.S. 108 (2013) ......................................... passim
Kiobel v. Royal Dutch Petroleum, Co.,
621 F. 3d 111 (2d Cir. 2010) ............................ 25, 26
Licci by Licci v. Lebanese Canadian Bank, SAL,
834 F.3d 201 (2d Cir. 2016) ............................. 12, 14
Licci ex rel. Licci v. Lebanese Canadian Bank, SAL,
732 F. 3d 161 (2d Cir. 2013) .................................. 25
Mastafa v. Chevron Corp.,
770 F.3d 170 (2d Cir. 2014) ............................ passim
Morrison v. National Australia Bank, Ltd.,
561 U.S. 247 (2010) ................................................ 11

vii
RJR Nabisco, Inc. v. European Cmty.,
136 S. Ct. 2090 (2016) ...................................... 11, 12
Romero v. Drummond Co.,
552 F.3d 1303 (11th Cir. 2008) ........................ 24–25
Sarei v. Rio Tinto, PLC,
550 F.3d 822 (2008).................................................. 8
Sarei v Rio Tinto, PLC,
671 F.3d 736 (9th Cir. 2011) .................................. 24
Sikhs for Justice, Inc. v. Nath,
596 F. App’x 7 (2d Cir. 2014) ................................. 26
Sosa v. Alvarez-Machain,
542 U.S. 692 (2004) .....................................20, 22, 26
United States v. Amedy,
24 U.S. (1 Wheat.) 392 (1826)............................... 23

Statutes
19 U.S.C.A. § 1307.............................................. 27–28
28 U.S.C. § 1350 ................................................... 1, 17
Pub. L. No. 114-125, §910, 130 Stat. 122, 239–40 .. 28

Other Authorities
Anthony J. Bellia Jr & Bradford R. Clark, The Alien
Tort Statute and the Law of Nations,
78 U. Chi. L. Rev. 445 (2011)................................. 22

1
INTRODUCTION
This Court should deny the petition given that the
court below expressly remanded this case with
instructions for Respondents to amend their
complaint and to provide further detail about
Petitioner’s domestic conduct so that the application
of Kiobel v. Royal Dutch Petroleum Co., 569 U.S. 108
(2013), can be determined on a complete record. Pet.
App. 44a–45a, 46a. Respondents should have the
opportunity to do so, particularly since this Court’s
decision in Jesner v. Arab Bank, PLC, 138 S. Ct. 1386
(2018) set forth new requirements under the ATS, 28
U.S.C. § 1350, after their operative complaint was
filed in 2016.
Petitioner claims the allegations here are too
“scant” to overcome the extraterritoriality bar, but the
adequacy of Respondents’ pleadings should not be
determined until they have had an opportunity to
amend their complaint. Pet. 10. To the extent there is
an issue about which conduct is attributable to Nestlé
USA after the affiliated companies were dismissed
pursuant to Jesner, this can only be determined after
the complaint is amended.
Petitioner’s argument that there is a circuit split
on the issue of aiding and abetting in this context is
over-stated. There is no circuit split as to whether a
corporation aiding and abetting a law of nations
violation is a cognizable ATS claim. The Circuits are
aligned on the availability of aiding and abetting
liability under the ATS. Here too, a decision on the
applicable aiding and abetting standards should be

2
made after Respondents amend their complaint.
Respondents’ amended complaint will also address
the traceability of Nestlé U.S.A.’s conduct and Article
III standing.
The domestic corporate liability holding below is in
accord with the decisions in the Fourth, Fifth,
Seventh, Eleventh, and D.C. Circuits, in refusing to
create a categorical rule barring corporate liability
under the ATS. This Court has accepted the issue of
domestic corporate liability twice before in Kiobel and
Jesner. The Executive Branch filed Amicus briefs in
these cases supporting corporate liability under the
ATS. There are no foreign policy questions precluding
corporate liability here. Moreover, corporate liability
is especially appropriate here given the nature of the
international prohibition on slavery, from which
corporations are plainly not exempted.
The facts of this case are undisputed and
troubling—child slave labor is atrocious—and the
opportunity to amend is in the best interests of justice.
Petitioner objects that the case has been pending for
fourteen years, but it is Petitioner’s repeated motions
to dismiss and appellate procedures, not any actions
by Respondents, that have occupied that time.
Moreover, in all this time, the system of child slave
labor in the Ivory Coast remains. A more fully
developed factual record would substantially aid the
Court’s understanding of the extent of Petitioner’s
domestic activity as it relates to the allegations.
The petition should be denied.

3
STATEMENT
I.

STATEMENT OF FACTS

Respondents are former child slaves who were
trafficked from Mali and subsequently held in slavery
on cocoa plantations in the Ivory Coast. Pet. App. 35a.
Between the ages of twelve and fourteen, Respondents
were forced to work on cocoa farms for twelve to
fourteen hours per day, at least six days per week. Id.
They were not paid for their work and were given only
scraps of food to eat. ER 158-61 (No. 17-55435)
(hereafter “ER”). 1 Respondents were beaten with
whips and tree branches when the guards felt that
they were not working quickly enough. Pet. App. 35a;
ER 158-61. Respondents were forced to sleep on the
floor in a small, locked room with several other
children. ER 158-61. Respondents knew that children
who tried to flee the cocoa plantations would be
severely beaten or tortured if caught. Pet. App. 35a.
One Respondent, John Doe II, witnessed the guards
cut open the feet of the other small children who tried
to escape. Id.; ER 159. Another, John Doe III,
witnessed small children who tried to escape being
forced to drink urine by the guards when they were
caught. Pet. App. 35a; ER 159.
Petitioner Nestlé USA is a large manufacturer,
purchaser, processer, and retail seller of cocoa beans.
Pet. App. 35a. At the time of filing Nestlé USA was
headquartered in California (it since moved to
Except where otherwise indicated citations to “ER” refer to
the excerpts of record in the appeal below, case No. 17-55435.
1

4
Virginia) and it sells Nestlé-brand products in the
United States. Pet. App. 35a; ER 138. Every major
operational decision regarding Nestlé’s U.S. market,
including the sourcing and supervision of its supply
chain in the Ivory Coast, is made or approved in the
United States. Pet. App. 35a.
Petitioner maintains an unusual degree of control
over the cocoa market in the Ivory Coast because of its
enormous buying power, and maintains that power by
providing resources to plantations engaged in child
slavery. Pet. App. 35a–36a. Petitioner knows these
plantations use child slave labor yet deliberately
continues to aid them in order to secure cocoa at the
low cost it demands. Pet. App. 36a. Petitioner offers
both financial and technical assistance to the cocoa
farmers. Id. Petitioner controls the terms and
conditions by which plantations produce and supply
cocoa. ER 143. Petitioner maintains its influence on
this slavery-based system in part by providing local
farmers and/or farmer cooperatives with (1) ongoing
financial support, including advance payments and
personal spending money to maintain the farmers'
and/or the cooperatives' loyalty as exclusive suppliers;
(2) farming supplies, including fertilizers, tools and
equipment; and (3) training and capacity building in
particular growing and fermentation techniques and
general farm maintenance, including labor practices.
Pet. App. 36a; ER 144.
Through
exclusive
supplier
and
buyer
relationships, Petitioner dictates the terms by which
the plantations produce and supply cocoa, including
the labor conditions under which the cocoa beans are

5
produced. Pet. App. 36a; ER 143. Training and quality
control visits occur several times per year and require
frequent and ongoing visits to the farms by Petitioner
and their agents. Pet. App. 36a, 43a–44a. Petitioner
disseminates this on-the-ground reporting to U.S.
offices so U.S.-based decisionmakers can assess what
actions take place in the Ivory Coast. ER 143. Due to
these visits, Petitioner has firsthand knowledge of the
child slave labor systems in the Ivory Coast. Pet. App.
36a.
A 2015 study conducted by Tulane University and
funded by the U.S. Department of Labor found that
the total number of children engaging in cocoa
production, child labor, and hazardous work in cocoagrowing areas in West Africa increased more than
thirty-eight percent from 2008–2009 to 2013–2014.
See Sch. of Pub. Health and Tropical Med., Tulane
Univ., Final Report 2013/14 Survey Research on
Child Labor in West African Cocoa Growing

Areas,
at
44
(2015),
available
at
https://tinyurl.com/ve8zbkg. The Ivory Coast

produces seventy percent of the world's cocoa, a
majority of which is imported to the United States by
Petitioner and other major players. Pet. App. 34a–
35a. Petitioner and the other named defendant in this
litigation dominate the cocoa market by maintaining
exclusive buyer-supplier relationships with Ivorian
cocoa farmers engaged in child slavery. Pet. App. 36a.
This is all done with the objective of securing the
cheapest cocoa possible. Id.
Petitioner is well-aware of the endemic nature of
child slavery on Ivorian cocoa plantations. Pet. App.

6
36a. The court of appeals held that Respondents
adequately alleged that Petitioner both knew of and
intended to use child slave labor to increase profits,
and the actions taken by Petitioner support this
conclusion. Doe I v. Nestlé USA, Inc., 766 F.3d 1013,
1025–26 (9th Cir. 2014). For example, Petitioner has
actively lobbied against legislation intended to make
its use of child slave labor transparent to the public.
ER 155–57. In addition, Petitioner has continued to
provide farmers that use child slave labor with
technical and financial assistance, including
unrestricted cash advances. Pet. App. 36a. Supplies
provided by Petitioner include fertilizers, tools and
equipment, as well as personal spending money to
maintain farmers’ loyalty as exclusive suppliers. Id.;
ER 144. Defendants’ employees frequently visit the
farms to conduct training and quality control visits.
Pet. App. 36a.
Petitioner aimed to quell the public concern over
child slave labor, and misrepresent its ineffectual
efforts to combat child slavery, by creating the Nestlé
Cocoa Plan, purportedly “aim[ing] to improve the lives
of cocoa farmers and the quality of their produce.”
Nestlé and International Cocoa Initiative, Nestlé
Cocoa Plan: Tackling Child Labor 2017 Report,
NESTLÉ (2017), https://tinyurl.com/u3v8rjx; ER 147–
148, 157–58. Such statements were false. ER 147–48,
156.
Despite their in-depth knowledge of the use of
child slave labor on cocoa farms in the Ivory Coast,
Petitioner continues to facilitate the child slave labor
system in a variety of other ways that contribute to

7
the maintenance of what amounts to chattel slavery
on Ivory Coast plantations. Pet. App. 36a. Petitioner
does so with the “goal of finding the cheapest sources
of cocoa.” Pet. App. 53a. In the United States,
Petitioner published numerous statements to
reassure consumers that they were monitoring and
controlling their supply chains, while they did nothing
to change the practices that allow child slavery to
flourish. See, e.g., ER 147–50. These actions were
designed to mislead consumers and allow the
companies to continue to reap profits from chocolate
made with cocoa grown in West Africa by child slaves.
ER 148, 150, 156. Child slavery in the Ivory Coast
remains widespread today. See, e.g., Peter Whoriskey
& Rachel Siegel, Cocoa’s Child Laborers,
WASHINGTON POST, June 5, 2019, available at
https://www.washingtonpost.com/graphics/2019/busi
ness/hershey-Nestlé-mars-chocolate-child-labor-westafrica/.
Petitioner has played, with Cargill and others, a
crucial role in perpetuating and benefitting from the
system that caused the Respondents’ suffering.
II.

PROCEEDINGS BELOW

This case has been pending since 2006. During
that time the relevant law substantially changed,
requiring the parties to re-brief the issues and causing
delay as the district and circuit courts considered and
applied the new law to the parties’ arguments. Below
is a brief overview of the procedural history.

8
A. Initial District Court Proceedings and
Appeal
This case originated in July of 2005 when
Respondents filed their initial complaint in the United
States District Court for the Central District of
California. After a round of briefing on Petitioner’s
motion to dismiss, the district court requested
additional briefing on certain issues. C.A. ER 625–30
(No. 10-56739). At the end of 2006, the district court
decided to stay the litigation pending the resolution,
and subsequent rehearing, of a case then pending
before the court of appeals, Sarei v. Rio Tinto, PLC,
550 F.3d 822 (2008). C.A. ER 499, 644 (No. 10-56739).
The stay on the case was not lifted until January
2009. C.A. ER 646 (No. 10-56739).
Respondents filed their first amended complaint
(“FAC”) in July of 2009 on behalf of Malian child
slaves who were forced to work on cocoa farms in the
Ivory Coast, which allowed Petitioner and other listed
Defendants to continuously obtain a “cheap supply of
cocoa by maintaining exclusive supplier/buyer
relationships with local farms and/or cooperatives in
Côte d’Ivoire.” C.A. ER 245, 251 (No. 10-56739). The
FAC specifically alleged that Petitioner is “directly
involved in the purchasing and processing of cocoa
beans from Côte d’Ivoire” and maintained
supplier/buyer relationships with several individuals
running cocoa farms in the Ivory Coast. C.A. ER 251–
52 (No. 10-56739).
After briefing and supplementation, the District
Court granted Petitioner’s Motion to Dismiss the

9
Amended Complaint on September 8, 2010. Doe I v.
Nestlé, S.A., 748 F. Supp. 2d 1057, 1145 (C.D. Cal.
2010). Respondents appealed, and in late 2013 that
decision was vacated. Doe I v. Nestlé USA, Inc., 738
F.3d 1048, 1049 (9th Cir. 2013). Petitioner then filed
a petition for rehearing by the panel and en banc. ER
193. In September 2014, the court withdrew its
previous order and issued a new opinion, again
vacating the district court’s decision and remanding
the case for further proceedings, denying the petition
as moot. Doe I v. Nestlé USA, Inc., 766 F.3d 1013 (9th
Cir. 2014). The following month, Petitioner filed a
petition for rehearing en banc, which was denied on
May 6, 2015. Doe I v. Nestlé USA, Inc., 788 F.3d 946
(9th Cir. 2015). Petitioner then filed a petition for
certiorari, which was denied by this Court on January
11, 2016. Doe I v. Nestlé USA, Inc., 136 S. Ct. 798
(2016).
B. Second Dismissal by the District Court
and Appeal
After certiorari was denied, Respondents filed a
Second Amended Complaint in July 2016, which
incorporated new factual allegations. ER 132-169. The
District Court granted Petitioner’s motion to dismiss
in March 2017, after requesting supplemental
briefing but without oral argument. ER 14.
Respondents appealed and on October 23, 2018,
the court of appeals reversed the district court’s
dismissal, holding that the allegations may state a
domestic application of an ATS claim, and that
Respondents should be able to amend their complaint

10
in light of the change in law represented by Jesner.
Pet. App. 60a–62a.
A month later, Petitioner again filed a petition for
panel rehearing and rehearing en banc. On July 5,
2019, the court of appeals issued an order amending
its most recent opinion to add that Respondents had
standing to bring their claims, denying Defendants’
petition for rehearing. Pet. App. 1a-46a. The court’s
amended opinion again reversed the district court’s
dismissal of Respondents’ claims. Id.
On September 25, 2019, Petitioner filed for a writ
of certiorari, asking this Court to determine whether
Respondents’ allegations overcome the presumption
against extraterritoriality and whether corporations
may be liable under the ATS. Pet. (i).
Thus, for nearly fifteen years Respondents have
been precluded from moving to the discovery phase of
this case because of several rounds of motion practice
and appeals without any significant delays caused by
Respondents’ actions.
REASONS FOR DENYING THE WRIT
I.

THERE IS NO CONFLICT BETWEEN
THE DECISION BELOW AND
DECISIONS OF THIS COURT OR THE
CIRCUIT COURTS.

In its decision the court of appeals both adhered to
this Court’s precedent and to that of the circuit courts
in finding the aiding and abetting allegations were
sufficient to displace the presumption against
extraterritoriality. Furthermore, review on this issue

11
is premature before Respondents are given the chance
to clarify allegations against Nestlé USA to comport
with this Court’s holding in Jesner v. Arab Bank, PLC,
138 S. Ct. 1386 (2018).
A. In Implementing the Touch and
Concern Test the Court Below Applied
This Court’s RJR Nabisco’s Two-Prong
Analysis.
Petitioner argues the panel’s conclusion is
“irreconcilable” with this Court’s precedent in
Morrison v. National Australia Bank, Ltd., 561 U.S.
247 (2010), Pet. 22, but what the court of appeals
found was that the relevant conduct in this case is
territorial under Morrison. The court of appeals used
RJR Nabisco’s two-step framework for the
presumption against extraterritoriality which, in its
second step, draws in part from Morrison’s “focus”
test. See RJR Nabisco, Inc. v. European Cmty., 136 S.
Ct. 2090, 2100-01 (2016). The RJR Nabisco
framework mandates that the court first determine
whether a statute clearly indicates that it applies to
foreign conduct, and if not, the court next determines
“whether the case involves a domestic application of
the statute.” RJR Nabisco, 136 S. Ct. at 2101. The
Court explained that this can be done by looking at
the “focus” of the statute, or, put another way, the
conduct Congress was concerned with regulating, and
where that conduct took place. Id. at 2100. The panel
pointed out in its analysis of this second step that the
ATS will apply if the conduct that is “relevant to the
statute’s focus” occurred domestically, “even if other

12
conduct occurred abroad.” Pet. App. 42a (quoting RJR
Nabisco, 136 S. Ct. at 2101. None of this analysis
conflicts with this Court’s cases.
The court below applied the two-step framework to
find that Petitioner’s relevant conduct may be
territorial. Pet. App. 41a–44a. The panel disagreed
with Petitioner’s contention that the “focus” of the
ATS should be narrowed to the location where the
injury occurred, rather than encompassing the
conduct of the Petitioner. Pet. App. 41a. Instead, the
panel determined that “[t]he focus of the ATS is not
limited to principal offenses . . . [and] aiding and
abetting comes within the ATS’s focus.” Id. at 42a.
Nothing in this analysis conflicts with this Court’s
cases.
The panel proceeded to analyze whether there may
be a domestic application of the statute here and
looked for guidance to cases similar to this matter that
were decided by other circuits. Pet. App. 42a–44a. The
panel focused its analysis mainly on Second Circuit
cases. Pet. App. 42a–44a; see generally Licci by Licci
v. Lebanese Canadian Bank, SAL, 834 F.3d 201 (2d
Cir. 2016) (finding the use of a domestic bank account
to facilitate payments to a terrorist organization was
sufficient to overcome the extraterritoriality bar for
aiding and abetting claims under the ATS); Mastafa
v. Chevron Corp., 770 F.3d 170 (2d Cir. 2014) (finding
the use of a domestic bank account and financial
arrangements, coupled with the purchase and
delivery of oil, was sufficient domestic activity to
satisfy the extraterritoriality requirement). These
cases hold that acts of aiding and abetting that occur

13
in the United States are international law violations
within the Alien Tort Statute’s focus, and are thus a
domestic application of the statute.
The court of appeals’ acknowledgement that aiding
and abetting within the United States might allow a
permissible application of the ATS is consistent with
this Court’s precedent, and that of the circuits.
Additionally, review is premature before Respondents
have had an opportunity to amend their complaint to
establish the aiding and abetting conduct for which
Petitioner is responsible.
B. Review is not Justified by a Conflict
Among the Circuit Courts.
Contrary to Petitioner’s assertion, thus far, courts
of appeals have consistently held claims concerning
corporations aiding and abetting violations of the law
of nations occurring on U.S. soil are cognizable under
the ATS in the handful of cases in which this issue has
arisen, including in those cases cited by Petitioner.
See, e.g. Doe v. Drummond Co., 782 F.3d 576, 597-98
(11th Cir. 2015). These courts have reached a
consensus that claims brought under the ATS alleging
aiding and abetting may proceed if the aiding and
abetting occurred on U.S. soil even if the injury
occurred on foreign soil.
The Second Circuit has found that a defendant
may be held liable for aiding and abetting a violation
of international law “when the defendant provides
practical assistance to the principal which has a
substantial effect on the perpetration of the crime and
does so with the purpose of facilitating the

14
commission of that crime.” Mastafa, 770 F.3d at 193.
To determine whether the ATS applies, it held “a
district court must isolate the ‘relevant conduct’ in a
complaint.” Id. at 185. In Mastafa, the Second Circuit
held the plaintiffs had alleged domestic conduct in the
complaint that touched and concerned the United
States, but ultimately determined the ATS could not
form a basis for jurisdiction because the complaint
failed to plead the required mens rea. Id. at 195–96.
In Licci, the Second Circuit used the same analysis to
find claims of a bank aiding and abetting a terrorist
group’s violation of the law of nations touched and
concerned the United States with sufficient force to
displace the presumption against extraterritoriality.
Licci by Licci v. Lebanese Canadian Bank, SAL, 834
F.3d 201, 219 (2d Cir. 2016). The decision below is
consistent
with
the
Second
Circuit’s
extraterritoriality analysis.
The Fourth Circuit held the Court’s ‘touch and
concern’ language implies that “courts should not
assume the presumption categorically bars cases that
manifest a close connection” to the United States. Al
Shimari v. CACI Premier Tech., Inc., 758 F.3d 516
(4th Cir. 2014). In Al Shimari, the court held claims
that a corporation’s managers in the United States
aided and abetted their employees to commit acts of
torture by providing tacit approval for the misconduct
and then attempting to cover it up touched and
concerned the territory of the United States with
sufficient force to displace the presumption against
extraterritoriality. Id. at 530–31.

15
The decision in. Adhikari v. Kellogg Brown & Root,
Inc., 845 F.3d 184, 198 (5th Cir. 2017) is not to the
contrary. In Adhikari, the plaintiffs alleged Kellogg
Brown Root (“KBR”), a subcontractor of the U.S.military, transferred payments to Daoud & Partners
(“Daoud”) in order to facilitate human trafficking in
Nepal. Adhikari, 845 F.3d at 198. The Fifth Circuit
held the presumption against extraterritoriality could
not be overcome because the plaintiffs failed to
introduce evidence demonstrating KBR’s U.S.-based
employees
“understood
the
circumstances
surrounding Daoud’s ‘recruitment’ and ‘supply’ of
third-country nationals like [p]laintiffs” or “worked to
prevent
those
circumstances
from
being
discontinued.” Id. at 198. The Fifth Circuit found the
plaintiffs in Adhikari failed to clearly demonstrate
that the domestic activity at issue aided and abetted
the claimed violations occurring on a U.S. military
base in Iraq. Id. The decision below is not in conflict
with this given the inadequacy of the Plaintiffs’
allegations in that case.
The Eleventh Circuit’s cases use a similar
analysis. See Drummond, 782 F.3d at 597. ATS claims
“will only displace the presumption against
extraterritoriality if enough of the relevant conduct
occurs domestically and if the allegations of domestic
conduct are supported by a minimum factual
predicate.” Drummond, 782 F.3d at 598; see also
Baloco v. Drummond Co., Inc., 767 F.3d 1229, 123839 (11th Cir. 2014). In both Baloco and Drummond,
the Eleventh Circuit held the alleged and aiding and
abetting that occurred in the United States exhibited

16
no more than mere consent to human rights abuses
committed by Colombian paramilitaries. See Baloco,
767 F.3d at 1236; Drummond, 782 F.3d at 599. This
case does not conflict with those cases, as the advance,
unrestricted payments sent to the slave-owners, the
direct benefit from the forced labor, the equipment
voluntarily provided to the farms, and the guaranteed
market for slave-harvested goods through the use of
exclusive supplier contracts all made the corporate
involvement in the crimes much greater than the
involvement in Baloco or Drummond.
In Drummond, the Eleventh Circuit suggested
actions “directed at” the underlying violation or
indicating “an express quid pro quo understanding”
that defendants would aid and abet the perpetrators
in exchange for conduct violating the law of nations
would amount to more than mere consent for behavior
abroad. Drummond, 782 F.3d at 591 (discussing
Baloco). In Cardona v. Chiquita Brands Int’l, Inc., 760
F.3d 1185 (11th Cir. 2014), the plaintiffs alleged the
defendant “review[ed], approv[ed], and conceal[ed] a
scheme of payments and weapons shipments to
Colombian terrorist organizations,” but the majority
never explicitly discussed aiding and abetting.
Cardona v. Chiquita Brands Int’l, Inc., 760 F.3d 1185,
1194 (11th Cir. 2014). The court’s analysis focused on
whether the claim fell within the law of nations,
holding that because the complaint did not comport
with Blackstone’s three narrowly defined categories of
the norms of state relationships (violation of safe
conducts, infringement of the rights of ambassadors,
and piracy), there was no jurisdiction under the ATS.

17
Id. at 1190. Cardona should also be considered an
outlier given its the Eleventh Circuit’s subsequent
treatment of it. See Drummond, 782 F.3d at 589–92
(11th Cir. 2015) (addressing Cardona and
acknowledging
relevant
consideration
for
extraterritoriality is whether the facts had been
established “with regard to the alleged aiding and
abetting conduct within the United States.”)
In accordance with the holdings of its sister
circuits, the court below held “aiding and abetting
comes within the ATS’s focus on ‘tort[s]...committed in
violation of the law of nations.’” Pet. App. 42a (quoting
28 U.S.C. § 1350). The court compared this case to
Mastafa and Licci in holding the allegations “paint a
picture of overseas slave labor that defendants
perpetuated from headquarters in the United States”
and the conduct alleged “is both specific and
domestic.” Pet. App. 44a. The fatal flaw in Mastafa
was that the plaintiffs did not demonstrate the
payments were intentional. See Mastafa, 770 F.3d at
194. Here, plaintiffs have alleged Nestlé provided
Ivoirian farmers with financial assistance with the
expectation cocoa prices would be kept low regardless
of whether child slavery was the only way to sustain
such low prices. Unlike Adhikari, where the court
found the allegations insufficient to demonstrate that
the corporation knew about the human trafficking,
Adhikari, 845 F.3d at 198, Respondents have alleged
Nestlé’s frequent site visits to Ivorian farms indicate
they were fully aware of the use of child slavery to
produce cocoa. Pet. App. 36a. As Licci and Al Shimari
indicate, the allegations of aiding and abetting child

18
slavery through means of financial assistance and
tacit approval to their exclusive suppliers are enough
to
overcome
the
presumption
against
extraterritoriality.
The court of appeals did not embrace a “lenient
standard under which a plaintiff may overcome the
extraterritoriality bar so long as it alleges corporate
oversight from a company’s United States
headquarters” as Petitioner suggests. Pet. 18. The
Court’s decision is directly in line with the holdings of
the Second, Fourth, Fifth, and Eleventh Circuits,
which all agree aiding and abetting is cognizable
under the ATS so long as the allegations indicate a
clear relationship to the violation of the law of nations
abroad. Moreover, the court of appeals remanded so
that what conduct each Defendant engaged in from
the United States could be determined. Pet. App. 46a.
Review is unwarranted before Respondents have had
a chance to do so.
C. This Case is Not Ripe for Review
The panel below remanded the complaint in order
to let Petitioners parse out the claims against each
Defendant under Jesner. Pet. App. 44a–46a. The
appellate panel held that Respondents should have a
final opportunity to replead and “specifically identify
the culpable conduct attributable to individual
domestic defendants.” Pet. App. 46a.
Certiorari at this stage to determine the scope of
extraterritoriality makes little sense when the
decision below found Petitioner’s conduct at issue for
that analysis might be clarified, and that it must be

19
on amendment. Similarly, there is no need to review
to address standing or tracing harms prior to the
allegations against specific defendants.
Certiorari should not be granted because
Respondents have not had the opportunity to amend
their complaint. Any claim about Article III standing,
or the relevance of particular conduct at this point in
time would be premature.
II.

THE COURT OF APPEALS’ CORPORATE
LIABILITY HOLDING IS CONSISTENT
WITH THIS COURT’S PRECEDENT AND
DOES NOT CREATE A CIRCUIT SPLIT.
A. The Ruling is Consistent With this
Court’s Decisions.

The question of whether the ATS applies to
corporations has twice been before this Court: first, in
Kiobel v. Royal Dutch Petroleum Co., 569 U.S. 108
(2013) and more recently in Jesner v. Arab Bank, PLC,
138 S. Ct. 1386 (2018). On both occasions, this Court
declined to create a categorical rule barring all forms
of corporate liability. See Kiobel, 569 U.S. at 114;
Jesner, 138 S. Ct. at 1402. Still, Petitioner insists the
decision below conflicts with this Court’s decision in
Jesner.
Petitioner argues that although the Jesner Court
“ultimately confined its holding to foreign
corporations,” this Court’s guidance on the question of
corporate liability nonetheless closed the door to any
form of corporate liability absent congressional action.
Pet. 25. Petitioner argues that because this Court

20
questioned whether there was an international norm
around corporate liability at the time Jesner was
decided, corporations, whether domestic or foreign,
can never be liable under the ATS. However, this
Court explicitly did not reach the issue of domestic
corporate liability in Jesner and did not decide
whether the law of nations provides corporate liability
at least in some contexts such as international norms
prohibiting child slave labor.
In Jesner, this Court relied on Sosa v. AlvarezMachain’s two-step framework for evaluating ATS
claims, which considers the following: (1) whether the
alleged violation is “of a norm that is specific,
universal, and obligatory” and (2) whether allowing
the case to proceed under the ATS is a proper exercise
of judicial discretion, or instead whether caution
requires the political branches to grant specific
authority before corporate liability can be imposed.
Jesner, 138 S. Ct. at 1399 (quoting Sosa v. AlvarezMachain, 542 U.S. 692, 732 (2004)).
The plurality and concurring opinions focused on
the foreign relations and separation of powers
concerns counselling against judicial discretion. See,
e.g. Jesner, 138 S. Ct. at 1407; id. at 1403. Critically,
the claims in Jesner were based on allegations that a
Jordanian bank, through transactions at its New York
branch, served as the “paymaster” for Hamas. Brief
for Petitioners at 3–6, Jesner, 138 S. Ct. 1386 (No. 16–
499), 2017 WL 2687507, at *7. These allegations had
significant implications for foreign governments and
international relations. Aside from the ongoing threat
to diplomatic relations with Jordan resulting from the

21
litigation, allegations involving Hamas necessarily
implicated the Palestinian government because
Hamas is a governing organization that controls
portions of Palestine. See Jesner, 138 S. Ct. at 1406.
Arab Bank had also provided financial services to an
organization connected to the Saudi Arabian
government. Brief for Petitioners at 9, Jesner, 138 S.
Ct. 1386 (No. 16–499), 2017 WL 2687507 at *7. This
Court declined to extend corporate liability to foreign
corporations, noting the policy implications.
This case presents no relevant foreign policy
implications. Defendants are U.S. corporations. See
Jesner, 138 S. Ct. at 1408, 1410 (Alito, J., concurring).
Here, Respondents allege that a U.S.-based
corporation, from its U.S. headquarters, aided and
abetted private cocoa producers who engaged—and
continue to engage—in endemic child slavery in the
Ivory Coast. Respondents allege that Petitioner
engaged in decision-making in the United States that
established, facilitated, maintained, and protected
Petitioner’s use of child slavery. See Pet. App. 35a–
36a. Respondents further allege that Petitioner
directed employees from their U.S. headquarters to
provide trainings to the farmers, and those employees
reported back to U.S. headquarters with information
helping to “perpetuate to a system built on child
slavery to depress labor costs.” Pet. App. 35a–36a.
There are no allegations about the government of the
Ivory Coast in Respondent’s complaint. Respondents’
allegations against a private corporation assisting in
private wrongs do not entangle foreign governments
at all, let alone to the extent as was the case in Jesner.

22
Additionally, Petitioner’s claim that Jesner
forecloses domestic corporate liability conflicts with
the ATS’ original purpose. As this Court explained,
under the Articles of Confederation, there was no
central authority that gave foreign citizens redress for
violations of the law of nations. See Jesner, 138 S. Ct.
at 1396. The Framers were concerned with tensions in
international relations derived from the new
government’s inability to prosecute such violations.
Id. (citing Sosa v. Alvarez-Machain, 542 U.S. 692, 717
(2004)). A particular concern was violations of
international law committed by American citizens –
at the passage of the ATS “[i]f a nation failed to
redress injuries by its citizens upon the citizens of
another nation” it would be perceived as “just cause
for reprisals or war.” Anthony J. Bellia Jr & Bradford
R. Clark, The Alien Tort Statute and the Law of
Nations, 78 U. Chi. L. Rev. 445, 476 (2011). The ATS
was, as Justice Kennedy explained, enacted “to avoid
foreign entanglements by ensuring the availability of
a federal forum where the failure to provide one might
cause another nation to hold the United States
responsible for an injury to a foreign citizen.” Jesner,
138 S. Ct. at 1397. A blanket ban on corporate liability
conflicts with these purposes.
There is no reason to create a per se rule here
barring domestic corporate liability under the ATS
where there are no foreign policy considerations at
issue. Indeed, remanding this case for amendment is
consistent with Jesner’s view of ATS liability.
Moreover, the Executive Branch in Kiobel and
Jesner expressly supported the availability of

23
corporate liability under the ATS because of the wellestablished existence of corporate liability in the
common law. See Brief for the United States as
Amicus Curiae Supporting Neither Party, Jesner, 138
S. Ct. 1386 (No. 16-499) (hereafter “Jesner Amicus
Brief”); Brief for the United States as Amicus Curiae
Supporting Petitioners, Kiobel 569 U.S. 108 (No. 101491) (hereafter “Kiobel Amicus Brief”).
In both Kiobel and Jesner, the United States’
amicus briefs emphasize that while causes of action
brought under the ATS are premised on international
law, they are ultimately questions of federal common
law and that corporate liability is a well-established
basic background principle of federal common law. See
Jesner Amicus Brief at 9; Kiobel Amicus Brief at 7, 14.
“It has long been ‘unquestionable’ under domestic law
that corporations are ‘deemed persons’ for ‘civil
purposes’ and can be held civilly liable.” Jesner
Amicus Brief at 10 (quoting United States v. Amedy,
24 U.S. (1 Wheat.) 392, 412 (1826)).
The United States’ briefs recognize that the ability
to violate international law norms is not limited to
natural persons—corporations are capable of
violating these norms as well. Kiobel Amicus Brief at
7. This acknowledgement is reflected in international
law reaching back decades. See, e.g., G.A. Res. 39/46,
Convention Against Torture and Other Cruel,
Inhumane, or Degrading Treatment or Punishment,
art. 1 (Oct. 10. 1984); G.A. Res. 260 A (III) Convention
on the Prevention and Punishment of the Crime of
Genocide, art. II (Dec. 9, 1948); Geneva Convention
Relative to the Treatment of Prisoners of War, art. 3,

24
Aug. 12, 1949, 75 U.N.T.S. 135. A categorical bar on
corporate liability under the ATS would thus bring
American law out of step with international law.
B. All Circuits to Address the Issue But
One Hold that Domestic Corporations
May Be Held Liable.
Petitioners contend that there is a split in the
circuits over the existence of corporate liability under
the ATS. However, as Petitioners acknowledge,
except for the Second Circuit’s decision in Kiobel v.
Royal Dutch Petroleum, Co., 621 F. 3d 111, 145 (2d
Cir. 2010), every circuit that has directly addressed
the issue of corporate liability has held that
corporations may be sued under the ATS. See Flomo
v. Firestone Nat. Rubber Co., 643 F.3d 1013, 1021 (7th
Cir. 2011) (“Having satisfied ourselves that
[C]orporate liability is possible under the Alien Tort
Statute. . .”); Doe v. Exxon Mobil Corp., 654 F.3d 11,
15 (D.C. Cir. 2011) (“[W]e join the Eleventh Circuit in
holding that neither the text, history, nor purpose of
the ATS supports corporate immunity for torts based
on heinous conduct allegedly committed by its agents
in violation of the law of nations.”), vacated on other
grounds, 527 F. App'x 7 (D.C. Cir. 2013); Sarei v Rio
Tinto, PLC, 671 F.3d 736, 748, 759–61, 764–65 (9th
Cir. 2011) (en banc) (concluding that the prohibition
against genocide extends to corporations), vacated on
other grounds, sub nom. Rio Tinto PLC v. Sarei, 133
S. Ct. 1995 (2013); Romero v. Drummond Co., 552
F.3d 1303, 1315 (11th Cir. 2008) (“the law of this
Circuit is that [the Alien Tort Statute] grants

25
jurisdiction from complaints of torture against
corporate defendants”). 2
Petitioner’s claim there is a “division in the lower
courts” by citing one outlying decision, already
reviewed by this Court: Kiobel v. Royal Dutch
Petroleum Co., 621 F.3d 111 (2d Cir. 2010). Several
Second Circuit decisions questioned the continuing
binding nature of the Circuit’s Kiobel decision prior to
Jesner. In Licci ex rel. Licci v. Lebanese Canadian
Bank, SAL, 732 F. 3d 161, 174 (2d Cir. 2013), a Second
Circuit panel specifically questioned the binding
nature of the Circuit’s Kiobel decision after this
Court’s decision in that case and remanded the issue

The Fourth Circuit also has a pending case regarding the
involvement of corporations in medical experimentation on
unwitting subjects, namely infecting 774 Guatemalan nationals
(including vulnerable children in an orphanage) with syphilis
without their knowledge during the 1940s and 1950s. See Estate
of Alvarez v. Johns Hopkins Univ. et al., 373 F.Supp.3d 639, 647
(D. Md. 2019); Estate of Alvarez v. Johns Hopkins Univ., 205 F.
Supp. 3d 681, 684 (D. Md. 2016) (detailing facts and noting that
donations of malaria medications were used to gain access to the
orphanage). The district court opined that allowing domestic
corporate liability would further the purposes of the ATS, “by
affording a remedy in U.S. courts to foreign nationals for
violations of international law by a U.S. corporation.” Estate of
Alvarez, 373 F. Supp. 3d at 648. The district court subsequently
certified an interlocutory appeal on the issue. Estate of Alvarez
v. Johns Hopkins Univ., 2019 WL 1779339 (D. Md. Apr. 23,
2019), and the case is now pending before the Fourth Circuit.
Estate of Alvarez, No. 19-1530 (4th Cir. filed May 17, 2019).
2

26
to the district court rather than dismiss the case based
on the Circuit’s Kiobel precedent. 3
The Second Circuit itself has been reluctant to
adopt a bar to corporate liability following Kiobel. See
Mastafa, 770 F.3d at 179 n.5 (explicitly noting that
panel had "no need" to address corporate liability even
though the claims were against a corporate
defendant); Sikhs for Justice, Inc. v. Nath, 596 F.
App’x 7, 10 (2d Cir. 2014) (same). The decision
vacated and then affirmed in Jesner was the first case
to apply the Second Circuit’s Kiobel decision as the
law of the Circuit, and noted that the 2011 Kiobel
decision “appears to swim alone against the tide” of its
sister circuits. In re Arab Bank, PLC Alien Tort
Statute Litig., 808 F.3d 144, 151 (2d Cir. 2015), as
amended (Dec. 17, 2015). The Second Circuit has yet
to address the effect, if any, of the Jesner decision on
its circuit’s case law. Given the current status of the
case law in the circuit courts, the split is not so fully
developed as to merit review in a case where
Respondents have been given leave to specify
additional allegations about the underlying conduct.
III. THERE ARE NO PRUDENTIAL OR
SEPARATION OF POWERS CONCERNS
NECESSITATING REVIEW
Even if Jesner did, as Defendants insist, urge
courts to restrict cases to those satisfying Sosa, Pet.

3

The case was ultimately dismissed on other grounds.

27
26, this case fits within that rubric. Both domestic and
international courts agree that slavery is a crime that
can be committed by corporations. The Ninth Circuit
held that there was corporate liability for slavery
under international law particularly given the nature
of the norm, a profit motive could provide the requisite
intent to commit slavery. Doe I v. Nestlé USA, 766
F.3d at 1025. Nothing in international law precludes
corporate liability for child slavery and forced labor
offenses. As the Ninth Circuit indicated “it would be
contrary to both the categorical nature of the
prohibition on slavery and the moral imperative
underlying that prohibition to conclude that
incorporation leads to legal absolution for acts of
enslavement.” Nestlé, 766 F.3d 1022.
The court of appeals already found that
Respondents sufficiently alleged that Nestlé and
Cargill acted purposefully to avail themselves of
slavery and forced child labor and therefore maximize
profits. Pet. App. 36a; Nestlé, 766 F.3d at 1026. The
questions presented on review are preliminary legal
rulings at the motion to dismiss stage in line with the
vast majority of circuit courts. This Court should deny
review and allow Respondents to amend their
complaint with additional facts about the domestic
corporations’ behavior in this case.
This case involves a universally agreed upon norm
against child slavery. Despite what Defendants imply
is an overriding interest in increased production, the
United States Government has consistently made its
opposition to slavery clear. See 19 U.S.C.A. § 1307
(prohibiting entry into the United States of any

28
foreign goods produced through forced or indentured
labor); Trade Facilitation and Trade Enforcement Act
of 2015, Pub. L. No. 114-125, §910, 130 Stat. 122, 239–
40 (requiring annual reports to both the Senate and
House regarding monitoring and compliance with this
prohibition).
No interest in cocoa production
overrides these policies. No separation of powers
concern arises when courts ac in concert with
established U.S. policies. Nor has the Ivory Coast
filed any objection or statement of interest that might
indicate opposition to this lawsuit against private
parties.
These
are
precisely
the
“narrow
circumstances” referred to in Jesner where
universally condemned behavior is at issue and no
third party or country is opposing the suit. Jesner, 138
S. Ct. at 1389.

29
CONCLUSION
For all of the above reasons, the petition should
be denied.
Respectfully submitted,
PAUL L. HOFFMAN
Counsel of Record
CATHERINE E. SWEETSER
JOHN C. WASHINGTON
HELEN I. ZELDES
SCHONBRUN SEPLOW
HARRIS & HOFFMAN
LLP
200 PIER AVENUE, #226
HERMOSA BEACH, CA
90245
TEL: (310) 396-0731
Email: hoffpaul@aol.com

TERRENCE
COLLINGSWORTH
INTERNATIONAL
RIGHTS ADVOCATES
621 MARYLAND AVE., NE
WASHINGTON, DC 20002
TEL: (202) 543-5811

Counsel for Respondents
Dated: December 12, 2019

